<html>
<title> - OPPORTUNITIES AND CHALLENGES IN U.S. RELATIONS WITH THE GULF STATES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  OPPORTUNITIES AND CHALLENGES IN U.S. RELATIONS WITH THE GULF STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              May 8, 2019
                               __________

                           Serial No. 116-33
                               __________

        Printed for the use of the Committee on Foreign Affairs
        
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-211PDF                   WASHINGTON : 2019                        
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             	MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York                 Member
ALBIO SIRES, New Jersey			CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia		STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida		JOE WILSON, South Carolina
KAREN BASS, California			SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts		TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island		ADAM KINZINGER, Illinois
AMI BERA, California			LEE ZELDIN, New York
JOAQUIN CASTRO, Texas			JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada			ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York		BRIAN MAST, Florida
TED LIEU, California			FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania		BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota		JOHN CURTIS, Utah
ILHAN OMAR, Minnesota			KEN BUCK, Colorado
COLIN ALLRED, Texas			RON WRIGHT, Texas
ANDY LEVIN, Michigan			GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia		TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania		GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey		STEVE WATKINS, Kansas
DAVID TRONE, Maryland			MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                                                                                                                  
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         	JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island              Ranking Member
TED LIEU, California			STEVE CHABOT, Ohio			
COLIN ALLRED, Texas			ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey		LEE ZELDIN, New York
DAVID TRONE, Maryland			BRIAN MAST, Florida
BRAD SHERMAN, California		BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts		GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California			STEVE WATKINS, Kansas
                                                                                                                                                                                                                                                              
                      Casey Kustin, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Lenderking, Mr. Timothy A., Deputy Assistant Secretary for 
  Arabian Gulf Affairs, Bureau of Near Eastern Affairs, U.S. 
  Department of State............................................     7

                  INFORMATION SUBMITTED FOR THE RECORD

Washington Post article submitted for the record from 
  Representative Lieu............................................    20

                                APPENDIX

Hearing Notice...................................................    37
Hearing Minutes..................................................    38
Hearing Attendance...............................................    39

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Information submitted for the record from Representative Trone...    40

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Deutch..........................................    45
Responses to questions submitted for the record from 
  Representative Chabot..........................................    50
Responses to questions submitted for the record from 
  Representative Malinowski......................................    52
Responses to questions submitted for the record from 
  Representative Trone...........................................    56


 
  OPPORTUNITIES AND CHALLENGES IN U.S. RELATIONS WITH THE GULF STATES

                         Wednesday, May 8, 2019

                        House of Representatives

                    Subcommittee on the Middle East,

               North Africa, and International Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 1:33 p.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. All right. If we could take our seats, this 
hearing will come to order. Welcome, everyone. The subcommittee 
is meeting today to hear testimony on U.S. relationships with 
the Gulf States.
    As you have heard, there are two votes on the floor. So I 
am going to offer my opening statement and then we will run to 
vote, and there are only two votes. We will come back for the 
hearing.
    I thank Mr. Lenderking for being here today. We are pleased 
to have someone from the Administration discuss our policy and 
relationships in this very important region and I will 
recognize myself for the purpose of making an opening 
statement.
    Thanks again, Mr. Lenderking, for testifying today and for 
your service to our country. Our hearing today will examine 
opportunities and challenges in our relationships with the 
States in the Arabian Gulf region.
    Our partnerships with these States are enduring and many 
date back to the end of the Second World War. The Gulf has been 
a focal point of U.S. foreign policy under both Democratic and 
Republican administrations.
    In his 1980 State of the Union Address, President Jimmy 
Carter articulated the Carter doctrine, which stated that the 
United States would use military force if necessary to defend 
its national interest in the Gulf.
    The late President George H. W. Bush acted on this doctrine 
when he sent a half a million U.S. troops to liberate Kuwait in 
1991.
    In recent years, our relationships with the Gulf States 
have faced many challenges, from 9/11 to the Iraq War to 
disagreements over the Arab Spring.
    Yet, these ties have endured. It is precisely because of 
this region's importance that I am perplexed and concerned that 
so many of our key partners lack U.S. Ambassadors.
    We have no Ambassador in Qatar, we have no Ambassador in 
the UAE, and only last month was an ambassador to Saudi Arabia 
confirmed.
    Mr. Lenderking, you are a talented and respected diplomat 
but cannot be everywhere all the time addressing all of the 
region's challenges.
    I believe our partnerships with Gulf States are vital to 
our national security and geopolitical stability. We are 
grateful to the nations who host our service members.
    Our forward-deployed presence is absolutely critical to 
peace and stability in the region. However, we must view these 
relationships through the prism of our own interests and values 
as well.
    Where do our priorities align? What types of actions 
undermine our goals and our values? We should honestly evaluate 
where our interests and values diverge, identify actions that 
undermine our mutual objectives, and be willing to express our 
opposition when our regional partners do not live up to these 
standards.
    We can never--we must never sacrifice our values even if it 
makes our partners uncomfortable. Unfortunately, we have seen 
senior members of this Administration turn a blind eye to 
actions that run counter to our interests and our values.
    Their motivation is unclear but the impacts are manifesting 
themselves in numerous ways. Whether it be brutal human rights 
violations like the horrific murder of Jamal Khashoggi or 
troubling alliances of convenience with groups that have posed 
a threat to the United States in Yemen, the Administration's 
refusal to acknowledge the serious bipartisan concern with many 
policy decisions like the veto of the bipartisan bicameral 
legislation to remove U.S. support for the war in Yemen or the 
refusal to comply with a congressional request for a 
determination on Global Magnitsky sanctions with respect to the 
Khashoggi murder raises even further questions about its 
intentions and it is, quite frankly, unacceptable.
    The focal point of the Administration's policy in the Gulf 
appears to be countering Iran. This is an interest that we 
share with States of the region. Even though we share this goal 
and recognize the very real threat that Iran poses to our 
partners and to our own interests, we cannot just give our 
partners in the Gulf a free pass if their behavior damages 
other U.S. interests or contradicts our values.
    We cannot just look the other way while the Saudi-led war 
in Yemen results in the loss of more and more innocent lives 
and a growing humanitarian catastrophe and simply shift all of 
the blame to the atrocities committed by Iran.
    We cannot stay silent if the UAE hacks into the personal 
information of activists and dissidents including U.S. 
citizens. We cannot avert our eyes when regional partners from 
Qatar to Saudi Arabia to Bahrain violate the human rights of 
foreign workers and their own citizens.
    And if we are serious about countering Iran, we must 
resolve the GCC rift which has dragged on now for almost 2 
years. We are stronger when there is unity among our partners 
and when we do not give bad actors like Iran any space to 
attempt to exploit discord.
    I am worried that the Trump Administration has provided a 
free pass for our regional partners on too many issues and that 
ultimately that may undermine our goals.
    I hope Mr. Lenderking can provide a clear assessment of the 
opportunities and the challenges facing the United States and 
how United States policy can foster an approach to the Gulf 
that secures our interests and that does so without sacrificing 
our values.
    And with that, we will recess until after votes, come back 
and give the ranking member the opportunity to present an 
opening statement, and then we will turn to you, Mr. 
Lenderking, and we will recess until then.
    [Recess.]
    Mr. Deutch. All right. I call this hearing back to order 
and I recognize the ranking member for the purpose of making an 
opening statement.
    Mr. Wilson. Thank you, Chairman Deutch, for calling this 
hearing today on relations between the U.S. and our allies in 
the Gulf.
    The United States is fortunate to have many friends in such 
a critically important region of the world. Our country's 
relationship with Saudi Arabia was solidified aboard the USS 
Quincy in 1945 as President Franklin Delano Roosevelt met with 
the kingdom's founder, King Abdul Aziz.
    Since that time, Washington and Riyadh have developed a 
robust historical relationship and close security ties. U.S.-
Bahrain relations stretch back to 1903 in bilateral security 
ties with Bahrain back to the end of World War II.
    Bahrain hosts 7,000 U.S. military personnel and serves as 
the headquarters for NAVCENT in the U.S. Navy's Fifth Fleet.
    Kuwait now hosts over 13,000 U.S. military personnel. Only 
Germany, Japan, and South Korea host more U.S. troops than 
Kuwait. Extensive U.S.-Qatar defense and security relations 
were recently highlighted by the U.S.-Qatar strategic dialog in 
Washington in January 2018 and DOHA January 2019.
    The United Arab Emirates host about 5,000 U.S. troops and 
the UAE forces have served alongside U.S. troops in Somalia, 
the Balkans, Afghanistan, Libya, and Syria.
    Last, but certainly not least, Oman was the very first Gulf 
State to prevent U.S. military use of its facilities in 1980. 
Since that time, Oman has hosted U.S. forces during every 
military operation in the Middle East.
    I look forward to our discussion with Deputy Assistant 
Secretary Lenderking today about how we can maintain these 
partnerships while confronting the many challenges to the 
region.
    The ongoing war in Yemen between the Iran-backed Houthi 
rebels and the internationally recognized government of Yemen 
backed by a Saudi-led coalition has created a dire humanitarian 
crisis affecting Yemeni citizens.
    I look forward to hearing from Mr. Lenderking about the 
status of the U.N. peace process and how Congress and the 
Administration can work together to support that process.
    I am also increasingly concerned that Iran, the Houthi 
rebels' main backer, is simply not incentivized to see an end 
to the hostilities in Yemen.
    Iran seeks to exert its influence in the region by 
fostering a network of armed groups and proxies loyal to 
Tehran. Last summer, the State Department designated the al-
Ashtar Brigades in Bahrain as an Iranian-backed terrorist group 
for their designs to overthrow the government in Manama.
    Better understanding the threats that Iran poses to our GCC 
partners can help Congress develop policy solutions to support 
the Gulf countries against this threat.
    Internal GCC divisions remain a serious challenge. The GCC 
dispute resulting in Qatar's isolation has dragged on since 
June 2017. It has proven immensely counterproductive and 
problematic in both U.S. policy and regional stability.
    I hope Mr. Lenderking can update us on mediation efforts 
and how the crisis is affecting the region. Finally, members on 
both sides of the aisle remain, of course, concerned by the 
human rights situation across the region but particularly in 
Saudi Arabia.
    Concerning developments of the past year include the 
reported imprisonment of several U.S. citizens, the murder of 
Jamal Khashoggi, and the reported imprisonment and torture of 
peaceful women's rights activists.
    We support Saudi Arabia's efforts to modernize its economy 
for long-term success but that modernization must include 
improvement on human rights issues.
    I welcome an update from Mr. Lenderking on efforts to 
obtain justice for Mr. Khashoggi's murder and on United States 
efforts to leverage human rights reforms in Saudi Arabia.
    I look forward to hearing from our witness today. Thank you 
again, Chairman Deutch, and I yield back my time.
    Mr. Deutch. Thank you, Ranking Member Wilson.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record 
subject to the length limitations in the rules.
    It is now a pleasure to introduce our witness, Mr. Tim 
Lenderking. Mr. Lenderking currently serves as deputy assistant 
secretary of State for Arabian Gulf affairs in the Near East 
Bureau at the U.S. Department of State.
    He is a career member of the senior Foreign Service having 
served in U.S. embassies in Riyadh, Baghdad, Kuwait, and Rabat 
and held numerous Foreign Service posts both domestically and 
internationally.
    Mr. Lenderking joined the Foreign Service after a career in 
the refugee field where he held numerous positions with 
American NGO's and with the United Nations in New York, Sudan, 
Pakistan, Afghanistan, and Thailand.
    He has had a most distinguished career and on top of that 
distinguished career it is also DAS Lenderking's birthday, 
which I am certain he is thrilled to be spending with all of us 
here at the subcommittee.
    So from all of us, Mr. Lenderking, we are glad you are here 
and we wish you a very joyous birthday.
    Before you begin, let me just remind you that if you could 
limit your testimony to 5 minutes and, without objection, your 
prepared written statement will be made part of the hearing 
record.
    I am really grateful that you are here with us today and I 
will recognize you for your testimony.
    Mr. Lenderking.

STATEMENT OF TIMOTHY A. LENDERKING, DEPUTY ASSISTANT SECRETARY 
FOR ARABIAN GULF AFFAIRS, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Lenderking. Chairman Deutch, Ranking Member Wilson, 
first of all, thank you for the very kind birthday wishes and 
mine to yours, belatedly, but happy birthday to you.
    Chairman Deutch, Ranking Member Wilson, distinguished 
members of the committee, thank you for inviting me to testify. 
As you know, the Middle East is a critical region for U.S. 
interests and the Arabian Peninsula remains a key focus of our 
foreign policy.
    As Secretary Pompeo said earlier this year in Cairo, a 
strong, secure, and economically vibrant Middle East is in our 
national interest.
    It is clear that we have a considerable stake in the 
region's stability. The most urgent challenge facing the region 
and one of the greatest threats to our national security is 
Iran's destabilizing activities.
    Iran is the world's leading State sponsor of terror, spends 
millions of dollars supporting terrorist groups, and proxy 
organizations that threaten our interest and stoke deadly 
conflict.
    Iranian malign activity in Iraq, Syria, and Yemen and 
Iran's continued support for designated terrorist groups such 
as Lebanese Hezbollah threatens Israel and prolongs regional 
conflicts.
    Iran is pursuing dangerous ballistic missile technology 
that will potentially threaten our security. this 
Administration has engaged in a powerful pressure campaign to 
cutoff the revenues the Iranian regime uses to spread terror 
and destruction throughout the world.
    That pressure campaign is working. Our oil sanctions have 
taken over 1.5 million barrels of Iranian oil exports off the 
market since May 2018. Twenty-three entities have reduced their 
purchases of Iranian crude to zero.
    These actions deny critical revenue for Iran's malign 
activities. We have designated the Iranian Revolutionary Guard 
Corps--IRGC--as a foreign terrorist organization.
    The Trump Administration is focused on protecting America's 
homeland and America's national security interests. We actively 
counter the threat from terrorist groups in States that sponsor 
terrorism.
    We work to ensure natural resources and international 
commerce flow freely and we continue to main our steadfast 
commitment to the protection of our strongest partners 
including Israel.
    We firmly believe that the challenges and opportunities in 
the Gulf region mandate continued U.S. engagement. One clear 
challenge noted heretofore is in the area of human rights. At 
the highest levels we regularly raise the importance of human 
rights and respect for international obligations and 
commitments.
    We emphasize the importance of the humane treatment of 
detainees and thorough investigation of and accountability for 
allegations of abuse.
    I know this subcommittee shares our concerns and we have 
spoken out publicly about them. We continue to do so in our 
private diplomatic engagement as well.
    Our recently released human rights reports demonstrate the 
concerns we have with each of our Gulf partners to varying 
degrees.
    For example, our policy in Bahrain is to encourage reform, 
reconciliation, and respect for freedom of expression, peaceful 
assembly and association.
    We were also horrified by the murder of Saudi journalist 
Jamal Khashoggi. It was a heinous act and we want to be clear 
that full accountability for those responsible has not yet been 
achieved.
    We have been forthright with the Saudi leadership that 
there must be honest credible justice for Mr. Khashoggi. We 
also continue to press Riyadh on its detention of several U.S. 
citizens and numerous human rights advocates.
    Ambassador Abizaid arrived in Riyadh just this past week 
and I know that one of his priorities will be addressing these 
issues in the weeks ahead.
    China's burgeoning economic influence in the Gulf is 
another challenge. We have been candid in sharing our concerns 
with governments in the region. This includes the 
telecommunications sector and the rollout of 5G in particular.
    To ensure a fair playing field for U.S. companies we 
continue to stress the importance of market principles and 
transparent market access requirements.
    A third challenge is the Gulf dispute with Qatar involving 
Saudi Arabia, the UAE, Bahrain, and Egypt. As Secretary Pompeo 
has said, we need the Gulf countries working together on the 
complex set of challenges that face each of our interests in 
the region.
    We view a resolution to the dispute as in the best 
interests of the countries involved and in our national 
security interests as well. We have emphasized that the Gulf 
dispute benefits Iran.
    We spend a lot of time talking about the challenges in the 
Gulf and they are, no doubt, there. But let us remember the 
opportunities for us that stem from our engagement.
    Our shared interests countering terrorism, fostering 
economic development, countering Iran's malign activity provide 
an opportunity to bring our partners together. We are also 
asking the GCC countries to do more to resolve regional crises 
like Libya, Sudan, and Lebanon, and to partner with us in those 
endeavors.
    We stand ready to work with all of our partners to address 
the challenges we face.
    Chairman Deutch, Ranking Member Wilson, members of the 
committee, thank you for the opportunity to testify and we 
welcome the opportunity to answer your questions.
    [The prepared statement of Mr. Lenderking follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you very much, Mr. Lenderking, for your 
testimony.
    We will now move to member questions, under the 5-minute 
rule. I will begin, followed by Ranking Member Wilson, and then 
we will alternate between the parties.
    Let me just begin by acknowledging, Mr. Lenderking, that we 
ask a lot of some of our partners, often asking them to change 
behavior on issues that we do not always see eye to eye on.
    We want cooperation on Iran. We want help countering the 
Russian and Chinese influence. We have asked in Syria and Libya 
and we want responsible action to bring the war in Yemen to a 
halt and we want to be clear that human rights is not a 
secondary concern. All of these affect U.S. national security.
    I, personally, do not believe that we are asking too much. 
But it seems--it seems like the president and other top 
advisors believe that in order to get cooperation in some areas 
we have to push other issues further down the list.
    So I would just ask you to--let me just give you the 
opportunity to share with the subcommittee what are our 
consistent messages to Gulf partners? If you could correct the 
record, help us understand what those messages look like and 
sound like.
    Mr. Lenderking. Thank you, Mr. Chairman.
    I think, first and foremost, we talk about the threats that 
we are facing together, which we believe that are also issues 
that threaten the Gulf countries. I have mentioned Iran's 
malign influence. This plays out in varying degrees to each of 
the countries.
    In Yemen, unfortunately, with the civil war continuing to 
rage we see that the Houthis were aided and abetted, although 
not proxies of the Iranians--that they, just as Ranking Member 
Wilson said, the Iranians show no inclination, unfortunately, 
to help bring that conflict to a close.
    So we do see that the Iranians are supporting the Houthis 
in ways that are fueling the conflict. So we have a host of 
security issues.
    We have talked about human rights and I think that is a 
crucial area where we do a lot privately when necessary. As I 
mentioned, our human rights reports, which are in the public 
domain, we do a lot of very private messaging with the Saudi 
leadership and I think Ambassador Abizaid will take that on as 
a key challenge.
    Another primary area for us----
    Mr. Deutch. Mr. Lenderking, so I understand private 
messaging you are not going to be willing to tell us exactly 
what the wording of that messaging is. But if you could give us 
some sense when it comes to human rights the general nature of 
that private messaging.
    Mr. Lenderking. Of course. I think in each of the countries 
the messaging is different. I mean, their commonalities, I 
would say, common principles--freedom of assembly, freedom of 
speech, et cetera--that are part of our human rights dialog.
    But if you take the case of Bahrain, we have had an ongoing 
conversation stemming back to some of the concerns we felt 
about their handling of the Shi'a population that goes back 
several years.
    That is a particular area of concern. On the other hand, we 
were heartened to see the record turnout in the recent 
parliamentary elections, the election of a female speaker of 
Parliament very much on the positive side. Bahrain has a very 
good track record in terms of trafficking in persons so that is 
very much on the positive side.
    Saudi Arabia, of course, the crucial issue has been the 
ones I have mentioned--the killing of Jamal Khashoggi, which we 
note in our human rights report was conducted by government 
agents. So we are quite public and quite direct about that.
    Secretary Pompeo has indicated, including most recently in 
late April, we continue to investigate. We call on Saudi Arabia 
to take measures against those responsible all the way up to 
the highest levels.
    Mr. Deutch. And what is the status of that investigation?
    Mr. Lenderking. The status of the investigation is that the 
Saudis have a legal process underway. We may not be totally 
satisfied with the pace of it. They have a different legal 
system. The Saudis have asked for our patience to let the legal 
proceedings continue.
    This is not something that we are going to allow to be 
swept under the table or buried under other priority issues.
    Mr. Deutch. So I appreciate that, Mr. Lenderking. But even 
as that investigation plays out--we could talk about the 
hurdles and the timing and why it takes so long--even as that 
plays out, we have seen the human rights activists, more than 
two dozen, detained since last May.
    The question is how do we push back against--it is not just 
that horrific case--how do we push back against the Saudis' 
human rights violations.
    Should the Administration consider applying Global 
Magnitsky Act sanctions against Saudi officials responsible for 
unjust treatment not just in connection with the Khashoggi case 
but unjust treatment of these activists if there is credible 
evidence, especially that--if there is credible evidence that 
there has been abuse or torture?
    Mr. Lenderking. Mr. Chairman, I think the Global Magnitsky 
parameters are something that we constantly look at. So if we 
feel that they apply in other cases we would, of course, take a 
serious look at that.
    We have, as noted, identified 17 individuals. We did that 
sort of right off the bat within a month or so of Khashoggi's 
killing. We have utilized other legal measures to block visas 
for others whom we deem are--were involved in that case.
    Mr. Deutch. But even--just as I wrap up--in addition to the 
Khashoggi case, are there ongoing--is there an ongoing review 
of Global Magnitsky Act sanctions and the potential application 
of those sanctions to individuals in connection with either 
abuse or torture if there is credible evidence that that 
exists?
    Mr. Lenderking. I will say that there is not directly at 
this particular time. I would say we are prepared to go in that 
direction should information come to us that would rise to that 
level.
    Mr. Deutch. Thank you.
    Mr. Wilson.
    Mr. Wilson. And thank you, Mr. Chairman, and, Mr. 
Lenderking, thank you for being here today.
    And in January, Representative Keating and I introduced 
H.R. 554, the Saudi Educational Transparency and Reform Act, 
which highlights Saudi Arabia's inflammatory education 
curriculum.
    Is the State Department working with Saudi Arabia on this 
issue?
    Mr. Lenderking. We are indeed. This has been an issue that 
we have looked at--been looking at for several years. 
Particularly problematic are textbooks that we have sought to 
work with the Saudis on that has demeaning language toward, for 
example, Shi'a, which we think is not in keeping, certainly, 
with the direction that the Crown Prince of Saudi Arabia wants 
to take the country.
    He has talked about the importance of Saudi Arabia 
returning to a moderate Islam. Educational reform--what kids 
are taught in schools--we would see as a vital part of that. So 
we have worked with the Saudis on that effort.
    We have seen some improvement. More work to be done.
    Mr. Wilson. And with the effort in Saudi Arabia, the focus 
there of human rights and rule of law, what is the status of 
working with Kuwait and its level of progress in developing 
human rights and rule of law and what is the State Department 
doing to promote the most open society that could be?
    Mr. Lenderking. We also highlight a number of issues in our 
human rights report pertaining to Kuwait. So that is very much 
an active dialog. We do not have the same voracity, I would 
say, on the human rights issues that we do with the Saudis at 
this particular time.
    But we have had concerns about freedom of assembly and 
other issues that we continue to raise with the Kuwaiti 
government.
    Mr. Wilson. And also possibly detention issues of person in 
that country?
    Mr. Lenderking. Of detentions?
    Mr. Wilson. Yes.
    Mr. Lenderking. Yes. We are aware of certain particular 
cases right now that we are working on and that we are working 
to resolve as quickly as we can.
    Mr. Wilson. That is greatly appreciated.
    And then the ongoing dispute with Qatar and its neighbors, 
how does this affect American interests in the Middle East?
    Mr. Lenderking. We believe that the blockade of Qatar's 
airspace, its land border, is beneficial to Iran and we do not 
believe that this blockade or dispute with Qatar serves even 
the interests of those who are doing it.
    We have thrown ourselves at it quite strongly at various 
points. I have traveled with special envoys to the region on a 
number of occasions and we have sought to deliver messages to 
the leadership of all the countries concerned to work out their 
differences.
    We have supported the Kuwaitis as a mediator and very much 
value the role that they have played. We are not there yet. We 
would also like to look at other measures.
    We have assumed that the blockade could not necessarily be 
lifted in one bite, so to speak. Let us look at ways that 
pilgrims moving to the Haj, for example, can be helped to 
perform their religious duties.
    Let us look at family reunification. There are numerous 
ways that we think the Gulf countries could chip away at some 
of the issues.
    But I think the main point is that we are better united, 
just as you said, Congressman, that these countries, when we 
look at the region we count on them to work with us in 
confronting, you know, regional challenges across the board.
    Mr. Wilson. And including working together with us. Sadly, 
there has been terror financing from the GCC countries. Have we 
identified who the recipients--which terrorist groups are 
receiving funds and what efforts are being made to deter 
further financing?
    Mr. Lenderking. We have a very strong dialog with the Gulf 
countries on terrorism financing. We partner with our Treasury 
colleagues who often have the lead on this particular issue.
    We have seen some improvements. We have seen the Saudis 
move up the ranking in this particular area. We are very glad 
for that.
    But I would say across the board there is more work that 
could be done, particularly as we look at Iranian financial 
flows in and out of the Gulf, and as we scrutinize that area 
more, we will be going to our Gulf partners to do more heavy 
lifting.
    Mr. Wilson. And with your extraordinary background in the 
Middle East, do you believe that progress is being made in 
regard to human rights for the citizens of the region?
    Mr. Lenderking. Oh, I think there is progress. We 
oftentimes say there is three steps forward and two back. We 
are trying to avoid that. It would be great to have five steps 
forward and no back.
    So that is very much the posture that we take is that the 
human rights improvements that we are pushing for we think are 
beneficial to those countries. We would not do it otherwise.
    But we also think we have strong interests to advocate for 
and I am sure we will continue to do so.
    Mr. Wilson. Thank you for your service.
    Mr. Lenderking. Thank you.
    Mr. Deutch. Thank you, Mr. Wilson.
    We have been joined by the chairman of the House Foreign 
Affairs Committee.
    Chairman Engel, you are recognized.
    Chairman Engel. Thank you, Mr. Chairman. It is strange to 
be all the way over on this side. I have not been here in 
years, you know.
    But thank you and thanks to members of the subcommittee for 
letting me speak. So let me say, Mr. Deutch--Chairman Deutch--
Ranking Member Wilson, Mr. Lenderking, members of the 
subcommittee, I welcome the opportunity to address the many 
challenges and opportunities in the U.S. relationship with the 
Arabian Gulf.
    Right now, our relationships have been consumed by human 
rights and accountability issues. They have been hampered by 
foreign policy concerns where our interests diverge.
    In Saudi Arabia, the murder of Jamal Khashoggi and the 
imprisonment of an American physician, of two American 
journalists, and of women activists and bloggers have certainly 
hindered and made more difficult our relationship.
    In order to move past these issues, the United States will 
need to see real changes. I want to move past the issue--these 
issues but we cannot really be business as usual.
    With respect to the UAE, our security cooperation remains 
strong. But serious concerns remain about reports that military 
equipment made in the United States and sold to the Emiratis 
has ended up in the hands of third parties, even extremists.
    We are also closely monitoring how the UAE is influencing 
various conflicts around the world from Sudan to Libya to 
Somalia, and Yemen has been a major concern of this committee.
    Unfortunately, we have not seen nearly enough 
accountability for attacks against civilians--a funeral, a 
fishing boat, a Save the Children's hospital.
    Our partners must be better than this and we need to insist 
on it and this committee, I believe, has a role to play. I 
believe that the best approach, moving forward, is to limit 
assistance to our partners including weapons transfers if they 
cannot meet our expectations.
    Let me be clear, though. The Houthis are equally at fault. 
They have resisted implementation of the Stockholm Agreement, 
blocked humanitarian assistance in getting to vulnerable 
Yemenis, and committed atrocities against detainees.
    But we cannot simply look the other way when our partner's 
behavior has been so troubling. At the same time, we have a 
real interest in continuing to work with these partners on 
issues of mutual concern.
    Our Gulf partners are playing a constructive role in the 
Israeli-Palestinian context, reportedly building back-channel 
cooperation with Israel, and backfilling U.S. commitments to 
Palestinian assistance.
    Qatar has made a positive impact in the stabilization of 
Gaza, working through Israel, not counter to Israel, and this 
is a welcome newer development.
    The United States and Gulf partners share economic 
opportunities, anti-terrorism concerns and can be working 
together to counter the threat posed by Iran.
    For this to happen, a unified Gulf is essential. But so 
far, we have not seen, unfortunately, enough progress to end 
the Qatar blockade.
    It is in all parties' interests to end this blockade so 
that we can work together to counter the real threats in the 
region. At the very least, Gulf Countries should allow Qatar 
overflight rights so that each flight out of Doha is not 
putting money in Iran's pockets.
    Again, I thank the members of the subcommittee, 
particularly the chairman and ranking member, for devoting 
much-needed attention to the opportunities and challenges in 
the Gulf, and I yield back the balance of my time.
    Mr. Deutch. The chairman yields back.
    Mr. Lieu, you are recognized for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair. Thank you, Secretary 
Lenderking, for your service in both Democratic and Republican 
administrations.
    I note that you were the deputy chief of mission at the 
U.S. Embassy in Riyadh, Saudi Arabia, from 2013 to 2016. So I 
am going to ask you some questions about Saudi Arabia and then 
about Yemen.
    Does the Trump Administration--so let me first ask about 
Jamal Khashoggi. As you know, Saudi Arabian officials lured him 
into a Saudi embassy, even though he was an American resident, 
and they murdered him and then cut his body into parts using a 
bone saw.
    Does the Trump Administration know where Khashoggi body 
parts are?
    Mr. Lenderking. We do not.
    Mr. Lieu. OK. Do you believe that Khashoggi's family should 
have the dignity and respect of having his body?
    Mr. Lenderking. Yes, I think we would support that, of 
course.
    Mr. Lieu. Has the Trump Administration made a request to 
Saudi Arabia asking for Khashoggi's body?
    Mr. Lenderking. We have.
    Mr. Lieu. OK. And how has Saudi Arabia responded to that 
request?
    Mr. Lenderking. Thus far, the Saudis have responded that 
they do not know where the body is.
    Mr. Lieu. Do you believe that? They killed him.
    Mr. Lenderking. I think there were--there are things that 
we do not know about what went on in the consulate and 
thereafter, and I speak honestly when I tell all of you that 
when Secretary Pompeo says that there is more to be 
investigated, that is--that is the case including on this 
particular issue.
    Mr. Lieu. Well, I am glad you raise that.
    So I would like to enter into the record, Mr. Chair, an 
article in the Washington Post that is titled, ``CIA Concludes 
Saudi Crown Prince Ordered Jamal Khashoggi's Assassination.'' 
It is dated November 16, 2018.
    Mr. Chair, if I could enter that into the record.
    Mr. Deutch. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. All right.
    So the CIA has concluded that a Saudi conference ordered 
Khashoggi's assassination. Do you share that view?
    Mr. Lenderking. Mr. Congressman, I have not seen anything 
nor, I believe, has Secretary Pompeo to corroborate that point 
of view.
    Mr. Lieu. So the article notes that the CIA has concluded 
that with high assessment. Have you gotten a briefing from the 
CIA on that issue?
    Mr. Lenderking. I have had--I have had some conversations, 
of course, with the CIA about this issue.
    Mr. Lieu. So what is the State Department doing to try to 
get more information either on who killed Khashoggi if it is 
not the CIA saying the Crown Prince did it, and where his body 
is?
    Mr. Lenderking. Well, I would leave to intel channels the 
way that--you know, some of those issues. But I would say that 
in our--in our private engagement with the Saudis, this is very 
much a live issue and, as I said in my statement, we are not 
satisfied in a number of areas--accountability, credibility. 
You mentioned the body. These are things that I think the 
Saudis still owe us.
    Mr. Lieu. Thank you. I would like to move on to Yemen. On 
March 26th, the 4-year anniversary of the conflict in Yemen, a 
hospital in northern Yemen, supported by Save the Children with 
funding from USAID, was partially destroyed in an air strike 
and several children and health care workers were killed.
    Has the Administration made any efforts to investigate this 
incident?
    Mr. Lenderking. Sometimes our efforts to investigate on our 
own are quite limited, given the fact that we do not have a 
large presence inside Yemen to investigate directly. So we are 
reliant, to some extent, on the coalition.
    But yes, we have pressed this issue with the Saudis, with 
the Saudi-led coalition, and we understand that the strike was 
on a hospital. It was not on--sorry, it was not on the hospital 
but on a nearby facility which there was some indication that 
there were Houthis elements. But we understand that Saudis have 
acknowledged that there was some civilian casualties.
    Mr. Lieu. All right. Thank you.
    Now, if there--an investigation determines that the Saudis 
and Emiratis are responsible for destroying part of a hospital 
supported with U.S. taxpayer dollars, what actions would the 
Administration plan on taking if that were the case?
    Mr. Lenderking. Well, you are pointing to, you know, a very 
live subject that we have with the Saudis--an ongoing 
conversation, a set of training, a set of using our influence 
to improve Saudi targeting techniques and overall conduct of 
the war in Yemen.
    And so this would be very much folded into it. 
Unfortunately, it is not the first allegation of civilian 
casualties. I wish I would say it would be the last.
    But this is--this is an area that we take very seriously 
and our leadership in Riyadh, you can imagine, under former 
CENTCOM Commander John Abizaid that we will continue to do that 
with the Saudis.
    Mr. Lieu. Thank you. This is my last question.
    I commend the Trump Administration for stopping the 
refueling of Saudi jets. I would like to know if you could tell 
us what is the Administration doing in terms of support to the 
Saudi-led military coalition in Yemen?
    Mr. Lenderking. Part of our support is political, of 
course, in the sense that we recognize that Saudi Arabia should 
not lose this conflict in Yemen--that the other side is backed 
by our enemies and that we need to continue to support the 
Saudi-led coalition to, at times, when appropriate keep 
military pressure on the Houthis.
    And so we have a few limited ways that we do that. They are 
not terribly significant and you are right to point out that we 
did discontinue the refueling support.
    Mr. Deutch. Thank you, Mr. Lieu.
    Mr. Allred, you are recognized.
    Mr. Allred. Thank you, Mr. Chairman. Thank you, Mr. 
Lenderking, for being here and for your service across multiple 
administrations.
    I want to be clear, though, to followup on my colleague, 
Mr. Lieu's, line of questioning that you do not accept the 
CIA's assessment that Jamal Khashoggi's murder was directed by 
the Crown Prince of Saudi Arabia?
    Mr. Lenderking. I have no independent basis to confirm or 
deny that one way or the other. I think what we are trying to 
say is that we have not gotten to the bottom of it yet.
    Mr. Allred. By we, do we not rely on our intelligence 
services to make those assessments?
    Mr. Lenderking. Of course, and we also are relying on 
Saudis and Turks and others who might have information, and I 
think the fact that we have continued to identify individuals 
and whether it is restrict visas or look at certain individuals 
under the GloMag--the Global Magnitsky parameters--indicates 
that this is very much a live issue.
    Mr. Allred. I just find that to be pretty remarkable--I 
really do--that this Administration continues to not accept the 
conclusions of its own intelligence services.
    This is not the first instance of this on this committee. 
We hear this all the time now, that our intelligence services 
reach an assessment with high confidence that they do not do 
very lightly, that they do with corroborating information and 
they do in cooperation with our allies and with underlying 
facts, and that our administration and the president of the 
United States then says, I do not know if our intelligence 
service is correct--I am going to go off my own gut and talk to 
the Saudis or the Russians or whoever it might be and maybe 
they will be right and not our own intelligence assessments.
    And I--to me, this is a larger issue that faces us here, 
which is who are we going to trust in our own government. Are 
we going to trust the intelligence that we receive from our 
American intelligence services that work very hard to assess 
this information, to source it, who have people putting their 
lives on the line at times to get that information?
    Or are we going to trust the parties that have a self-
interest in our own determinations who then later are allowed 
to get away with enormous violations of international law, of 
human rights, and to me this is a larger national security 
issue for the United States and this region is rife with 
countries that have human rights violations.
    I recognize that we need them as a counter balance to 
Iranian influence. I recognize that we have a military presence 
in every single one of these countries and that we use them for 
many purposes.
    But, in my opinion, when we undermine our values and allow 
human rights violations to take place with our allies that 
hurts our overall national security. It makes us less safe 
because we then encourage extremism.
    We encourage people to look at the United States as their 
enemy when we should be encouraging the spread of the values 
and rules-based order that rules the world and that we have 
installed since World War II and that is now, I think, being 
actively undermined around the world, at times with this 
Administration just nodding along.
    And so, to me, this is a larger issue and I want to in the 
time that I have left talk about Bahrain because I have--
several of my constituents have reached out to me about this 
and I want to thank them for reaching out to me about this and 
about the crackdown on free speech, on any opposition to its 
leadership, that has prevented any real development of any 
internal democratic institutions.
    The Obama Administration imposed a ban on arms sales to 
Bahrain that has been lifted by the Trump Administration. Has 
that improved the human rights situation and why did we reach 
that decision?
    Mr. Lenderking. Thank you, Congressman.
    On Bahrain, I think we do have a pretty active dialog with 
the Bahraini leadership about human rights issues. We also talk 
to human rights advocates inside Bahrain, outside Bahrain. It 
is helping to enrich and develop our understanding of what is 
going on there.
    I could not make a direct correlation between the arms 
sales and the human rights situation. I know that, you know, 
Bahrain remains a critical partner and that Bahrain is on the 
front lines of the Iran, you know, threat network.
    They are very close geographically to Iran. We see illicit 
material flowing into Bahrain. There is a very legitimate 
security concern that the Bahrainis have. So they got to 
watch--they got to watch that space.
    Mr. Allred. Yes. Well, thank you. Yes.
    Thank you. I certainly recognize Bahrain's importance. I 
want to finish by saying this, which is that private 
conversations about human rights, putting it in reports that we 
issue, is not the same as global leadership from the president 
of the United States and that is what we need to have on human 
rights issues.
    It is a shame that the rest of world is now looking at the 
United States no longer as an ally in combating human rights 
violations and that we will not speak out more broadly and more 
forcefully on these issues.
    And the fact that you are having private conversations is 
good. I am glad to hear that. But it is not enough, and the 
United States is better than that.
    Thank you.
    Mr. Deutch. Thank you, Mr. Allred.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Thank you, Mr. Lenderking. Let me--let me actually pick up 
with the Bahrain discussion, and I appreciate your opening 
statement and your answer just now that we are apparently 
trying to raise these issues.
    But I am confused because the first and most prominent 
statement on Bahrain policy that this Administration made was 
made by the president at the very beginning of the 
Administration.
    He said, quote, ``Our countries have a wonderful 
relationship together. But there has been a little strain. But 
there won't be a strain with this Administration.''
    And that statement coincided with the resumption of arms 
sales and was interpreted by everybody in Bahrain as a 
statement that human rights would no longer be an issue.
    Has our policy changed since the president's statement?
    Mr. Lenderking. No, it has not changed. I would say that 
the president is right to herald the good relationship that we 
have. It was mentioned that they host NAVCENT, a very important 
resource for us, as we try to support security in this vital 
waterway, the Persian Gulf.
    But we do--let me assure you, Congressman, knowing of your 
interest in our conversations on this topic in the past that we 
do not give the Bahrainis a blank check.
    We do have, you know, a pretty vital conversation both at 
the foreign minister level and through our embassy in Manama 
and back here when the Bahrainis visit.
    This is very much a part of our discussion with the 
Bahrainis and we are looking for improvements in some of the 
areas that I have noted.
    Mr. Malinowski. Well, we will continue that conversation. 
Let me broaden this out a bit.
    Your testimony and much of our policy is based on the 
belief that Iran continues destabilizing activities throughout 
the region and let me just State that is, of course, 100 
percent correct, from Syria to Yemen to Lebanon and a perfectly 
appropriate focus of our policy.
    But let me ask you a series of questions about some other 
countries. Is it correct to say that Saudi Arabia and the UAE 
are blockading Qatar? Yes or no.
    Mr. Lenderking. Yes, that is correct. That is part of the 
Gulf----
    Mr. Malinowski. Is it--would you agree that a short while 
ago the Saudi government kidnapped the prime minister of 
Lebanon in an effort to coerce that government to adopt 
policies more friendly to Saudi interests?
    Mr. Lenderking. I do not know that I would use the word 
kidnapped. But there was an unfortunate extra bit of time spent 
in Saudi Arabia and we have talked to the Saudis about this, 
and I am glad we were able to help work this out.
    Mr. Malinowski. You are a good diplomat.
    Is it fair to say that the world's worst humanitarian 
crisis right now is going on in Yemen and that the suffering is 
due at least in part--not wholly, but in part--to actions by 
the Saudi government and the UAE, that both--that two 
successive U.S. administrations have urged them to moderate?
    Mr. Lenderking. That is correct. Let us not give the 
Houthis a pass on this, OK?
    Mr. Malinowski. I am not. But is it correct to say that the 
UAE has funded and armed militias in Libya that right as we 
speak are trying to overthrow a government that both the United 
States and United Nations has recognized?
    Mr. Lenderking. I am not sure that is entirely accurate, 
Congressman.
    I think that UAE has an interest in what happens in Libya. 
We have a very active dialog with them. We are coordinating 
with them very closely and I think we are starting to push for 
a political process, which is the desired outcome of the United 
States.
    Mr. Malinowski. As we should be.
    Well, there is reporting that there are UAE--operated 
drones flying over Tripoli--armed drones on behalf of Haftar, 
who is in fact trying to overthrow the legitimate government.
    Is it true that the Saudi government has operated a team--a 
security unit dedicated to harassing, kidnapping, perhaps even 
killing dissidents in other countries beyond even just the 
Khashoggi case?
    Mr. Lenderking. I believe there has been in the past some 
such organizations. I do not know all the--you know, all the 
parameters of them. I do not know the marching orders, et 
cetera.
    This would be something that we would be concerned about 
and would address with the Saudis.
    Mr. Malinowski. So, look, you can see where I am going with 
this. I could go on to Somalia and Sudan and other examples but 
it seems to me we have two powers in the Middle East that are 
busy destabilizing the region because they are engaged in a 
civilizational war with each other--Sunni versus Shi'a.
    Is it in our interests to take one side in that cold war, 
as we seem to be doing right now, when both sides are 
destabilizing the region?
    Mr. Lenderking. I think what we would like to see is Iran 
to come back in the fold, and the secretary has laid out 12 
points that he--that we hope that the Iranians will recognize 
the wisdom of.
    It may be a difficult leap for them. We are very concerned 
about the way that Iran spreads its tentacles throughout the 
Gulf into Syria. We have to support the Saudis and the Gulf 
countries to withstand, I think, the pressure that they are 
under from the Iranians.
    Mr. Malinowski. Are they in the fold?
    Mr. Lenderking. Sorry?
    Mr. Malinowski. Are the Saudis and the Emiratis in the 
fold, given the long list that we just went through of 
destabilizing activities?
    Mr. Lenderking. On many issues, they are, and where they 
are not, that is where we are trying to maneuver them into 
better positions.
    Mr. Malinowski. Thank you. I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Mr. Trone, you are recognized.
    Mr. Trone. I just would followup with Mr. Allred's and Mr. 
Malinowski's comments. The maneuvering does not appear to be 
going too well.
    I am just befuddled how you can say that our own CIA we are 
not buying their intelligence. I am befuddled how you can say 
he was not kidnapped--he was detained.
    I mean, it must be hard for you to sit there and say that. 
It would be hard for me to sit there and say that, given your 
background and wonderful career.
    That must be tough. Let us go back to Chairman Engel and 
Chairman Royce have sent a letter to President Trump invoking 
the Magnitsky Act that triggered a determination that was due 
February the 8th.
    We have not heard a word since then. We sent another 
letter. Forty folks signed off on it. Can I enter this into the 
record, please?
    Mr. Deutch. Without objection.
    [The information referred to follows:]

    Mr. Trone. Thank you. So would not we expect to receive--it 
is mandated that we receive an answer as to the determination a 
who is responsible for Mr. Khashoggi's killing?
    Mr. Lenderking. I believe we owe you--we do owe you a 
response on that and I will certainly take that back and we 
will be as responsive as we can to that letter.
    Mr. Trone. February, March, April, May. When can we expect 
that? When the prime minister detained? Is this going to be one 
of those type things--detained, not kidnapped?
    Mr. Lenderking. No, I do not think so, sir. I think we 
will--we understand the obligation and we will move quickly on 
it.
    Mr. Trone. How is the Administration ensuring Saudi leaders 
do not believe they are free to kill dissidents and use 
diplomatic cover to do so? What is the top-to-top messaging?
    Mr. Lenderking. Sir, what is our messaging to the Saudis?
    Mr. Trone. That they do not have an open hand--a free hand, 
which they, clearly, think they do?
    Mr. Lenderking. Well, I think they do not get that from us, 
to be honest, and I think we have put in an avalanche of 
concern about that particular incident and where we would see 
such other behavior operating we would move to stop it.
    Mr. Trone. Yemen. Part of the Trump travel ban--36 
plaintiffs sued Trump Administration March 2018 claiming the 
government failed to follow its own guidelines, its own 
procedures, for viewing the travel ban requests as required by 
law, waivers.
    Some plaintiffs reported State Department officials refused 
to accept documents in support of their waiver requests. Others 
said they were never given a chance to apply for a waiver.
    According to Reuters, U.S. Government granted waivers only 
6 percent of visa applicants subject to the travel ban. When 
Secretary Pompeo was here, I asked him about this when he 
testified in March. But we did not get a very clear answer.
    What is the Administration's policy on reviewing and 
granting waivers and why is that percentage so abysmally low?
    Mr. Lenderking. Sir, I am sorry. I do not--I am not sure of 
the context in which your question is. I would be happy to 
respond but I am not quite sure I understand the question.
    Mr. Trone. So there is a Trump travel ban, as ability to 
get around the ban with waivers, and when folks apply for a 
waiver there is no response and eventually 6 percent get 
approved. It seems ridiculously low and, perhaps, punitive.
    Mr. Lenderking. I would have to take that back, sir. I am 
sorry. I cannot----
    Mr. Trone. We would appreciate it. If you can look into 
that, that would be good.
    Mr. Lenderking. OK. Happy to do it.
    Mr. Trone. Are you planning to increase your personnel and 
resources to maybe process these quicker and address it?
    Mr. Lenderking. I would be happy to look into that as well.
    Mr. Trone. Yield back the balance of my time.
    Mr. Connolly. If my friend would yield.
    Mr. Trone. I do.
    Mr. Connolly. I thank my friend, and without objection, Mr. 
Chairman, I would ask this time just be added to my 5 minutes.
    Mr. Deutch. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Lenderking--and I thank Mr. Trone--Qatar. I want to 
make sure--I heard your answer earlier. I want to make sure I 
understand the policy.
    The policy is we are encouraging our friends to stop it 
because the feuding with Qatar and the economic sanctions 
against Qatar are actually strengthening the interests of Iran 
in the region. Is that correct?
    Mr. Lenderking. Yes, that is correct.
    Mr. Connolly. And we have given that direction that is our 
official policy to our other allies in the region, Qatar being, 
of course, an ally as well?
    Mr. Lenderking. That is correct.
    Mr. Connolly. And have you gotten the warm fuzzies from the 
Saudis in that direction?
    Mr. Lenderking. Not really. I mean, we have understood that 
the Saudis have concerns about Qatari behavior that dates back 
a number of years. We have looked at those concerns. I think, 
you know, the overwhelming sense in the Administration is that 
we need to get on with Gulf unity.
    It is important to our interests and we want to see those 
countries working together to partner with us on the kind of 
challenges that we are talking about here today.
    Mr. Connolly. Just in terms of trade flows and, you know, 
movement of goods and services, if the Saudis and their allies 
in the Gulf block Qatar from, you know, air rights and border 
crossings and the like, I just--obviously, Qatar has to turn to 
Iran, correct?
    Mr. Lenderking. That is correct.
    Mr. Connolly. Yes.
    Mr. Lenderking. And that is very unfortunate.
    Mr. Connolly. All right. I just want to be real clear that 
that is our policy and that is good to know.
    Iran announced today that given the United States decision 
to renounce and walk away from the JCPOA that it was going to 
now limit one of the metrics set in the JCPOA, which is the 
sale and transshipment of enriched uranium.
    Our allies seem--and our adversaries who were party to the 
JCPOA seem rather apoplectic about this and, frankly, hold us 
responsible for creating an unstable situation where there had 
been a stable one.
    Our own government had admitted that heretofore all of the 
metrics set--metrics set in the JCPOA had been met and that 
Iran had not cheated.
    What is the position of the Administration now? Do you 
still believe that we can get a better deal, given the fact we 
walked away from our own deal? Who is going to believe that? I 
am just curious.
    Mr. Lenderking. Congressman, I am not, unfortunately, an 
expert in the JCPOA. I look at it in particular from sort of my 
foxhole, which is the Iranian threat into the Gulf and I know 
that the Administration is seeing a number of provocations that 
are emanating from the Iranians and are moving to address the 
immediate threat.
    Of course, from where I sit, I have talked about the areas 
such as Bahrain and Yemen where the Iranians are particularly 
active. And so we look to thwart Iran extending its influence 
into the Peninsula.
    Mr. Connolly. Well, and I appreciate that and your 
perspective and responsibilities, Mr. Lenderking.
    I guess I would urge you to take back that at least this 
Member of Congress, and I think I am not alone, believe the 
Administration itself is fomenting some of the Iranian behavior 
because we have renounced an agreement we wrote and encouraged 
all parties to participate in, and the sanctions we have 
reimposed are causing grief for our allies but, more 
importantly, obviously, are having effects in Iran that lead to 
the hardening of the positions, especially of the hardliners 
who are saying, we told you so--we told you not to trust the 
Americans--see what happens.
    And I think that is self-defeating, speaking for myself. 
You can feel free to take it back. But I think it is having a 
very deleterious impact on our diplomacy in the region and the 
things you care about are being adversely because of that 
policy.
    Khashoggi--Jamal Khashoggi was my constituent.
    Mr. Lenderking. Yes, I understand.
    Mr. Connolly. And he was brutally murdered in a consulate 
of the Saudi government in Istanbul. They lied about it. They--
initially, their position was no, no, he left the consulate 
healthy and fine.
    That was a lie. They had to retract that. Well, then it 
was, something happened--we are not quite sure what. Well, we 
know that two teams flew in on airplanes controlled by the 
Crown Prince with a bone saw, which is not normally a 
diplomatic tool unless you want to correct me.
    Mr. Lenderking. No corrections.
    Mr. Connolly. Let the record show he did not correct me. 
And they flew in, clearly, with malice aforethought, clearly 
planned. The Turks, to their credit, kept on issuing 
intelligence and even transcripts of the brutal murder, and 
finally the Saudis had to admit, yes, no, he was murdered and 
he was dismembered--things, you know, they denied earlier.
    And now we are supposed to believe it was something that 
went wrong, it was a rogue element, and it just comes as a 
shock to the Crown Prince.
    Our own intelligence and Turkish intelligence would suggest 
otherwise--that he in fact was the architect of this brutal 
murder.
    What are we going to do if we finally have to confirm that 
the--and I understand it is speculation, but this is not idle 
speculation--that the Crown Prince of Saudi Arabia, the heir to 
the throne, was in fact the architect of the murder of a U.S. 
legal resident in that consulate?
    Mr. Lenderking. Congressman, I think we will cross that 
bridge when we come to it, to be honest. I think there are 
things that we still do not know about what went down there, 
who actually did what.
    It underscores, I think, what the secretary has said, that 
we are going to follow the trail as high as it goes and I know 
he will keep to his word on that, and his instructions to me 
and others are to continue to----
    Mr. Connolly. I would just say in closing, Mr. Chairman, I 
appreciate that and I asked Mr. Pompeo this series of questions 
in more detail when he was here a few weeks ago and he did say 
that.
    We do not know what that means. What does that mean? There 
cannot be surprise that he is, at best, a suspect. At worst, 
much more than that.
    And so crossing that bridge when we, you know, come to it, 
well, there are those who would argue we have come to that 
bridge long ago and we have crossed it, and I guess we are 
hoping--I do not know--somebody falls off the bridge or I do 
not know what.
    But let me just say my constituent is dead. He was 
murdered. He was a gentle man who cared about his country, and 
for that he paid the price with his life. And it seems to me he 
is entitled to justice and I want my government to insist on 
it.
    Thank you, Mr. Chairman.
    Mr. Lenderking. Thank you.
    Mr. Deutch. Thank you, Mr. Connolly.
    Mr. Lenderking, there are just a handful of members who 
have some additional questions, if that is OK with you.
    Thank you. I will actually start with the ranking member, 
Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and just two 
questions.
    What milestones or goals are you hoping to achieve this 
year in the path to forming the Middle East Strategic Alliance?
    Mr. Lenderking. Thank you for raising that, Congressman.
    We are keen to bind the region together, as we have been 
talking, in a Middle East Strategic Alliance that brings 
together strategic and political and economic and energy 
interests.
    We have had numerous meetings and I am glad to say that 
during 2019 this year alone we have had three meetings on MESA 
in which everybody has participated.
    That means Qatar and Saudi Arabia and the Egyptians and 
others, and we think that this is an important initiative and a 
priority for us as a way of continuing to get at Gulf unity and 
using this mechanism to address some of the regional challenges 
that we have talked about.
    Mr. Wilson. And then finally, an ongoing concern--what are 
each of the GCC countries' current relationships with the Assad 
regime? What strategies are you using to discourage these 
countries from normalizing the relationship with the regime and 
how can Congress help you?
    Mr. Lenderking. Well, thank you.
    The Gulf countries have taken different approaches to the 
Assad regime. Some have reestablished relations, much to our 
discontent. Others are taking a harder line against that and 
would not--would not reestablish relations under current 
circumstances.
    And we are leading an effort to ensure that Syria is not 
brought back into the Arab League and I think we have strong 
support from the Gulf countries not to move on that step.
    Mr. Wilson. Thank you for your success.
    I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Lieu, you are recognized for 2 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Secretary Lenderking, earlier you had said that after the 
Trump Administration terminated refueling there was still some 
support of the Saudi-led coalition. It was not very much, 
mostly political.
    Could you put in writing to this committee what support the 
Trump Administration is still providing the Saudi-led 
coalition, just so we know what it is?
    Mr. Lenderking. Yes, of course.
    Mr. Lieu. All right. Thank you.
    And then you had also mentioned about the Jamal Khashoggi 
issue that you all are in contact with other authorities 
including Turkish authorities.
    Public reporting is that Turkish authorities say that 
Khashoggi's body parts were delivered to the home of the Saudi 
consulate general in Turkey.
    So you agree with that?
    Mr. Lenderking. I do not know that that is true or not. I 
am aware of the reports. I have seen that. But I do not know 
that that is true.
    Mr. Lieu. OK. So the CIA has already concluded with high 
assessment that the Crown Prince ordered the killing of Jamal 
Khashoggi.
    Is the State Department doing its own investigation?
    Mr. Lenderking. Yes, I mean in the sense of----
    Mr. Lieu. Who is leading that investigation?
    Mr. Lenderking. We do not have our own tools necessarily. 
We have diplomatic tools. But we are relying on other agencies 
in our government to support that effort and fill in the 
blanks.
    Mr. Lieu. So--all right. So Secretary Lenderking, you have 
nine superior honor awards from the Department of State. You 
have been in the Foreign Service since 1993. You know poppycock 
when you see it. You do not have to shred your credibility for 
the Trump Administration.
    The CIA has an assessment of high credibility. If you all 
do not want to believe that, then you need to go do your own 
investigation. Tell us who is leading it and then tell us you 
found something else.
    But for now, I just find it hard to believe you are just 
simply not agreeing to the intelligent professionals of our own 
American intelligence agencies.
    With that, I yield back.
    Mr. Deutch. Thank you, Mr. Lieu.
    Mr. Malinowski, you are recognized for 2 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman, and thanks for 
your patience, Mr. Lenderking.
    A couple of other issues that are a subject of ongoing 
conversations amongst us. One, you and I have spoken about the 
case of an American citizen detained in Saudi Arabia, Dr. Walid 
Fitaihi, and I want to just ask you for an update on that case 
and for your assessment of why, given, the harm that the 
Khashoggi case has done to the U.S.-Saudi relationship the 
Saudis continue to hold without due process, without charge, an 
American citizen? It is sort of inexplicable to me.
    Mr. Lenderking. It is inexplicable to us as well, to be 
honest. We have raised this case. I have raised it personally 
on my last trip to Riyadh just a few weeks ago.
    As an American citizen, the Administration--we always take 
these cases very seriously. We have not seen any justification 
for why he is detained.
    We are able to see him on a regular basis, which is very 
important to verify his well-being, and we have sought to make 
sure that his family can also have regular access to him.
    We are hopeful for a resolution.
    Mr. Malinowski. Thank you. And then the second quick 
issue--a number of us have sent the secretary a letter on the 
use of child soldiers by the coalition in Yemen.
    There has been very, very significant public reporting that 
large numbers of child soldiers from countries like Sudan are 
doing the ground fighting.
    If true, this would, obviously, violate the Child Soldiers 
Protection Act and would require some action on our part. I am 
wondering if we can expect an answer to that letter at some 
point soon.
    Mr. Lenderking. You can. The child support reports are very 
concerning to us and we are looking into them and we will 
respond.
    Mr. Malinowski. Thank you so much. I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    And finally, Mr. Lenderking, just a couple of questions 
before we close out.
    On the GCC rift, the State Department recently said a 
United GCC is the backbone for regional peace, prosperity, 
security, and stability and is essential to countering the 
single greatest threat to regional stability, the Iranian 
regime.
    Does the Administration believe that the intra-GCC dispute 
can be resolved in the near term or is this just now a part of 
regional politics?
    Mr. Lenderking. We do not think it is going to be just part 
of the regional architecture. We do think that with proper 
commitments and mediation, sticks and carrots, that we will get 
to a resolution here in the near term. We are very hopeful of 
that.
    Mr. Deutch. Can you describe those sticks and carrots for 
us?
    Mr. Lenderking. Well, we have talked about how negative the 
situation is for the Gulf and the fact that it pushes Qatar to 
the unfortunate reality of having to use Iranian airspace, 
which puts money in Iranian coffers.
    I mean, I think that is certainly counter to what we 
collectively are trying to do. We have called on the Kuwaitis 
to continue to mediate. We are prepared to support that effort 
in any way that we can.
    So I can assure you we will keep at it.
    Mr. Deutch. Well, I appreciate it. I think it is critical 
that we do everything we can to try to end that rift.
    And Mr. Trone, I will recognize you for 2 minutes.
    Mr. Trone. Thank you.
    It was recently in Republic that the Saudi government 
repeatedly has helped Saudi citizens evade prosecution and 
arrest in the United States and returned to the kingdom after 
they are accused of serious crimes in the United States.
    Successive U.S. administrations have not raised the subject 
because of worries the confrontation might jeopardize U.S. 
interests, particularly counterterrorism cooperation by the 
Saudis.
    The Trump Administration argues there is little the U.S. 
can do because we have no extradition treaty with Saudi Arabia. 
The State Department recently said the first time that it 
raised--said for the first time that it raised the issue with 
senior Saudi officials.
    What specific concerns did the State Department raise and 
with which officials?
    Mr. Lenderking. Thank you.
    This is--this is a concern for us and we have raised it 
with the Saudis. There seem to be more cases becoming known 
than originally thought. We are taking stock of each one of 
those cases.
    It is true, we do not have an extradition treaty that could 
be an obstacle for us. But we do not think that this is a 
proper comportment for a diplomatic ally of ours. And so this 
is something that we will continue to press with the 
leadership.
    Mr. Trone. That is good. But what are the other--what are 
options we could actually do, given we do not have the 
extradition treaty? What are concrete steps?
    Mr. Lenderking. Not 100 percent clear, Mr. Congressman, and 
I think it may require some creative solutions. But first we 
have to I think get better cooperation from the Saudis on this.
    Mr. Trone. Thank you.
    Mr. Deutch. I thank the witness and all the members for 
being here today.
    Deputy Secretary Lenderking, thank you so much for your 
testimony.
    Members of the subcommittee may have some additional 
questions for you and we ask that you please respond to those 
questions in writing and I ask that my colleagues submit any 
questions for the witness to the subcommittee clerk within five 
business days.
    And with that and without objection, the subcommittee is 
adjourned.
    [Whereupon, at 3:23 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       INFORMATION FOR THE RECORD
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
